           U.S. Department of
                                                                             Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   INFORMATION: Quality Control Review of                                          Date:   January 30, 2012
           Single Audit on the New Mexico
           Department of Transportation
           Report No. QC-2012-047
                                                                                       Reply To    JA-20
  From:    Earl C. Hedges                                                               Attn Of:
           Program Director for Single Audit

    To:    See Distribution

           The U. S. Department of Transportation (DOT) is the cognizant Federal single audit
           agency for the New Mexico Department of Transportation (New Mexico DOT).
           This report presents the results of our Quality Control Review (QCR) of a single
           audit performed by Meyners & Company, LLC on New Mexico DOT for the fiscal
           year ended June 30, 2009. During this period, New Mexico DOT expended
           approximately $351 million from DOT grant programs, as shown on the attached
           Schedule of Expenditures of Federal Awards. The DOT programs determined to be
           major by Meyners & Company were: (1) the Highway Planning and Construction
           Program, (2) the Federal Transit Cluster, (3) the Nonurbanized Area Formula
           Program, (4) the Highway Safety Cluster, and (5) the Minimum Penalties for Repeat
           Offenders for Driving While Intoxicated Program.

           The Office of Management and Budget’s (OMB) Circular A-133, “Audits of States,
           Local Governments, and Non-Profit Organizations,” requires the auditor to render
           an opinion on the entity’s financial statements, identify inappropriate use of Federal
           funds, and report internal control and compliance deficiencies that affect Federal
           grant programs.

           Meyners & Company rendered an unqualified (clean) opinion on New Mexico
           DOT’s financial statements and did not question any costs concerning DOT’s grant
           programs. Meyners & Company rendered an unqualified opinion on DOT’s major
           programs, but made recommendations to correct internal control and compliance
           deficiencies that directly affect the Federal Highway Administration (FHWA),
           Federal Transit Authority (FTA), and National Highway Traffic Safety
           Administration (NHTSA) Programs. 1



           1
               We advised FHWA, FTA and NHTSA about these deficiencies in a separate memorandum. The single audit report
                issued by Meyners & Company, LLC is available upon request sent to singleauditrequest@oig.dot.gov.
                                                                                  2

SCOPE

The purpose of our QCR was to determine: (1) whether the audit work complied
with generally accepted Government auditing standards, the Single Audit Act
of 1984, as amended (the Act), and OMB Circular A-133, and (2) the extent to which
we can rely on the auditor’s work.

RESULTS

Our initial review (performed in August 2010) determined that Meyners &
Company’s audit work was Technically Deficient. A Technically Deficient audit
means that the audit documentation contained quality deficiencies that affect the
reliability of the audit results and require corrective actions for the audit under
review. The most significant deficiencies were:

1. Identification of Direct and Material Compliance Requirements for Each
   Major Program. Meyners & Company did not properly identify the direct and
   material compliance requirements for each of the major DOT programs.
   Furthermore, Meyners & Company did not use Part 7 of OMB’s Compliance
   Supplement to determine the direct and material compliance requirements for
   NHTSA’s Minimum Penalties for Repeat Offenders Program.
2. Suspension and Debarment and Buy American Act Requirements (FHWA
   and FTA Major Programs). Meyners & Company’s audit documentation did
   not evidence compliance testing of Suspension and Debarment and Buy
   American Act requirements. The documentation did not show the testing of the
   Excluded Parties List System to ensure that contractors were not included on the
   list of suspended and debarred bidders.
3. Understanding and Testing of Internal Controls Related to Major Programs’
   Direct and Material Compliance Requirements. Meyners & Company’s audit
   documentation did not evidence adequate understanding and testing of internal
   controls for each of the major programs’ direct and material compliance
   requirements.
4. Reporting (FHWA and NHTSA Programs). Meyners & Company’s audit
   documentation did not evidence compliance testing of FHWA’s PR-20 (Voucher
   for Work Performed Under Provisions of the Federal Aid and Federal Highway
   Acts) and NHTSA’s Federal-Aid Reimbursement Voucher.
5. Special Tests and Provisions (OMB Compliance Supplement Part 4 for
   FHWA Programs). Meyners & Company’s audit documentation did not
   evidence compliance testing of the special tests and provisions listed in Part 4 of
   the OMB Compliance Supplement.
                                                                                3

6. Subrecipient Monitoring (FTA Programs). Meyners & Company’s audit
   documentation did not evidence compliance testing of subrecipient monitoring on
   FTA’s Nonurbanized Area Formula Program.
We recommended that Meyners & Company perform additional internal control and
compliance testing, and subsequently reissue the Single Audit Report on New
Mexico DOT’s fiscal year ending June 30, 2009. Meyners & Company concurred
with our recommendation and requested that we perform a follow-up review of its
additional audit work.

In June 2011, we performed a follow-up review and determined that the audit quality
deficiencies were not corrected and the audit work remained Technically Deficient.
We provided Meyners & Company a detailed list of corrective actions needed to
address each of the audit quality deficiencies. Meyners & Company requested an
opportunity to perform additional audit work to correct the deficiencies.

In July 2011, we performed another follow-up review and determined that the audit
work was Acceptable with a Deficiency, and therefore generally met the
requirements of generally accepted Government auditing standards, the Act, and
OMB Circular A-133. We found nothing to indicate that Meyners & Company’s
opinion on New Mexico DOT’s financial statements or reports on internal controls
and compliance were inappropriate or unreliable.

However, we identified a deficiency in audit documentation that Meyners &
Company needed to correct. Based on Meyners & Company’s explanations, we
determined that this deficiency did not alter the overall results of the audit. The
deficiency, which should be corrected in future audits, is related to the following
area:

Understanding of Internal Controls Related to Suspension and Debarment
(FTA and NHTSA Programs). Meyners & Company did not adequately document
its understanding of internal controls related to suspension and debarment of New
Mexico DOT’s subrecipients, even though, as we determined, it had performed
sufficient compliance testing of the suspension and debarment requirement. Meyners
& Company agreed to adequately document its understanding of internal controls
related to suspension and debarment in future audits.

We also identified the following deficiency as part of our desk review of the Single
Audit Report on New Mexico DOT’s fiscal year ending 2009:

   • Meyners & Company’s Report on Compliance with Requirements Applicable
     to Each Major Program and Internal Control Over Compliance in Accordance
     with OMB Circular A-133 (Compliance Report) did not identify the two
     findings that are required to be reported by OMB Circular A-133, as shown on
     the Schedule of Findings and Questioned Costs.
                                                                                  4

During our exit conference, Meyners & Company agreed to revise the Compliance
Report and subsequently file the final Single Audit Report on New Mexico DOT’s
fiscal year ending June 30, 2009 with the Federal Audit Clearinghouse.

If you have any questions concerning this report, please call me at (410) 962-1729, or
John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.

                                         #

Distribution:
   Division Administrator, FHWA, New Mexico Division Office
   Regional Administrator, FTA, Region VI
   Regional Administrator, NHTSA, Region VI

cc: Audit Liaison, FHWA, HAIM-13
    Audit Liaison, FTA, TPM-2
    Audit Liaison, NHTSA, NPO-310
    Audit Liaison, OST, M-1
    Controller, New Mexico DOT
